<html>
<title> - [H.A.S.C. No. 113-9]THE IMPACT OF THE CURRENT BUDGET-CONSTRAINED ENVIRONMENT ON MILITARY END STRENGTH</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                          [H.A.S.C. No. 113-9]
 
      THE IMPACT OF THE CURRENT BUDGET-CONSTRAINED ENVIRONMENT ON

                         MILITARY END STRENGTH

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     





                  U.S. GOVERNMENT PRINTING OFFICE
79-951                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, February 27, 2013, The Impact of the Current Budget-
  Constrained Environment on Military End Strength...............     1

Appendix:

Wednesday, February 27, 2013.....................................    21
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2013
 THE IMPACT OF THE CURRENT BUDGET-CONSTRAINED ENVIRONMENT ON MILITARY 
                              END STRENGTH
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Bromberg, LTG Howard B., USA, Deputy Chief of Staff, G1, U.S. 
  Army...........................................................     4
Jones, Lt Gen Darrell D., USAF, Deputy Chief of Staff for 
  Manpower, Personnel and Services, U.S. Air Force...............     7
Milstead, LtGen Robert E., Jr., USMC, Deputy Commandant, Manpower 
  & Reserve Affairs, U.S. Marine Corps...........................     6
Van Buskirk, VADM Scott R., USN, Deputy Chief of Naval 
  Operations, Manpower, Personnel, Training, and Education, U.S. 
  Navy...........................................................     5
Wright, Hon. Jessica L., Acting Under Secretary of Defense for 
  Personnel and Readiness, U.S. Department of Defense............     3

                                APPENDIX

Prepared Statements:

    Bromberg, LTG Howard B.......................................    48
    Jones, Lt Gen Darrell D......................................    80
    Davis, Hon. Susan A..........................................    27
    Milstead, LtGen Robert E., Jr................................    70
    Van Buskirk, VADM Scott R....................................    60
    Wilson, Hon. Joe.............................................    25
    Wright, Hon. Jessica L.......................................    28

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Heck.....................................................    97
    Mr. Wilson...................................................    97

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 THE IMPACT OF THE CURRENT BUDGET-CONSTRAINED ENVIRONMENT ON MILITARY 
                              END STRENGTH

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                      Washington, DC, Wednesday, February 27, 2013.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order. The subcommittee today will focus on the harsh realities 
of maintaining an All-Volunteer Force in a budget-constrained 
environment, reducing end strength of the military services. 
Although I understand the fiscal realities, as I have made 
clear in the past, I have serious reservations about the end 
strength and force structure reduction plans for our military. 
America remains at war today and will continue at some level of 
persistent conflict globally with a ruthless and committed 
enemy for the foreseeable future, encouraged by outlaw rogue 
regimes. We must not forget the attacks of September the 11th, 
2001.
    Nevertheless, the task of reducing manpower is not easily 
accomplished, and must be done with great care and compassion 
to ensure the services keep faith with the service members and 
their families who have served our Nation through more than 10 
years of war. The committee will hear from the witnesses on 
which authorities the Department of Defense [DOD] and each of 
the services plan to use to reduce end strength over the next 
several years.
    We will also explore the impact of a yearlong continuing 
resolution and sequestration on the services' current end 
strength plans. As a reminder, the military personnel accounts 
are exempt in fiscal year 2013 from cuts under sequestration. 
But that does not guarantee there will not be a long-term 
impact on end strength levels. Of significant concern to me is 
that increasing fiscal pressure on the military services, 
especially the Army and Marine Corps, will compel them to move 
from gradual reductions in manning levels to precipitous 
declines. I am also concerned that if the military services are 
compelled to make more significant reductions than now planned, 
that the use of involuntary separation authorities will become 
the norm.
    I would like to welcome our distinguished witnesses. The 
Honorable Jessica L. Wright, Acting Under Secretary of Defense 
for Personnel and Readiness; Lieutenant General Howard B. 
Bromberg, Deputy Chief of Staff, G-1, United States Department 
of the Army; Vice Admiral Scott R. Van Buskirk, Deputy Chief of 
Naval Operations, Manpower, Personnel, Training, and Education, 
U.S. Department of the Navy; Lieutenant General Robert E. 
Milstead, Jr., Deputy Commandant, Manpower and Reserve Affairs, 
United States Marine Corps; Lieutenant General Darrell D. 
Jones, Deputy Chief of Staff for Manpower, Personnel, and 
Services, U.S. Department of the Air Force.
    I would also like to recognize that today is the first 
appearance before the subcommittee for Lieutenant General 
Bromberg and Secretary Wright. Welcome to both of you.
    Ms. Davis is our ranking member, Congresswoman Susan Davis 
of California.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you. Thank you, Mr. Chairman. I want to 
thank you for holding this hearing for the impact of the Budget 
Control Act and the impact that it is having on the force 
structure and end service strength of the services. And then 
what sequestration and the uncertainty surrounding the 
remaining fiscal year 2013 may also have on our budget and your 
operations. I also want to thank all of the--most of the 
witnesses for the opportunity to spend some time with you in 
the last few days.
    The Budget Control Act [BCA] has already made the services, 
particularly the Army and the Marine Corps, take a hard look at 
their ability to sustain the current force. And while their 
decision to reduce end strength was based on the reduction in 
operational requirements, it was also a result of the reduction 
in funding imposed by the BCA. What concerns me is the 
additional reductions that are expected if and when 
sequestration sets in on March 1st. These significant 
reductions will be compounded when the continuing resolution 
under which our government, including the Department of 
Defense, are operating under. And that, as we all know, ends on 
March 27th.
    The full committee has held a number of hearings on the 
impacts of sequestration and the continuing resolution, but 
none of these hearings have focused on potential solutions to 
this dilemma. So while I appreciate having this hearing to 
learn more of what sequestration and the potential impact of a 
full year CR [continuing resolution] could have on the 
Department, the only people, quite honestly, who can resolve 
this issue are the Members of Congress.
    We must find common ground and be willing to compromise for 
the future benefit of our country. Political posturing should 
not come at the expense of our brave men and women in uniform 
and their families. I look forward to hearing all of you and 
working with my colleagues on this committee and in the House 
to develop a rational, a commonsense approach to resolving 
these challenges.
    Thank you, Mr. Chairman. And I look forward to our hearing.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 27.]
    Mr. Wilson. Thank you, Ms. Davis.
    Secretary Wright, we will begin with your testimony. As a 
reminder, please keep your statements to 3 minutes. We have 
your written statements for the record.

STATEMENT OF HON. JESSICA L. WRIGHT, ACTING UNDER SECRETARY OF 
DEFENSE FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Ms. Wright. Mr. Chairman, thank you. Ranking Member Davis, 
thank you very much. Distinguished members of the committee. It 
is a pleasure to discuss the effects of sequestration as 
mandated by the Budget Control Act of 2011, and the ongoing 
continuing resolution for fiscal year 2013, on the Department 
of Defense and military personnel readiness of our total force. 
Sequestration, which is scheduled to go in effect in 2 days, 
would result in $46 billion funding reductions across the 
Department, a reduction of 9 percent of the total budget for 
2013. This is the steepest decline of obligating authority in 
history. And an ongoing continuing resolution would compound 
that fiscal devastation.
    On February 13th, Deputy Secretary Carter and Chairman 
Dempsey, all four service chiefs and the National Guard Bureau 
chief appeared before the full House Armed Services Committee. 
They testified on the significant impacts both on sequestration 
and the continuing resolution would have on our national 
readiness. Whether it is a canceled deployment of an aircraft 
carrier or reduced training of Army troops to maintain 
proficiency or the degradation of our Reserve Components, the 
results of the impact on readiness in our armed forces will be 
disastrous.
    Managing readiness after a decade of war was bound to be a 
challenge, irrespective of our fiscal considerations. Now the 
services are beginning the difficult process of resetting and 
restoring our forces' ability to conduct a full range of 
military operations as required by the current defense 
strategy. I believe there is a very real possibility that the 
readiness and effects of sequestration or an operation under a 
continuing resolution would be devastating. These effects are 
likely to reduce readiness directly through the reduction of 
operation and training and indirectly through the effects of 
personnel and equipment. Some of those indirect effects are 
especially those that impact personnel pipelines, and it will 
take years to realize what they are and even longer to 
mitigate.
    Moving forward, I do want to thank you for the legislative 
authorities that the Congress gave us in NDAA 2013 [National 
Defense Authorization Act], which allows us greater flexibility 
to manage our force structure and to ensure the least impact to 
our service members and our readiness.
    Chairman Dempsey argued that we need flexibility to 
allocate our resources to our highest priorities. And when we 
are not allowed by legislation to touch individual pieces of 
our budget, readiness accounts inevitably, we pay the price. 
This is especially true in the terms of our military end 
strength. If sequestration is allowed to go forward with 
ongoing continuing resolution, the collateral damage will be 
seen in three major areas: Force readiness; impacts on force 
level, capabilities and morale; and impact on support programs. 
However, the President made it clear that we will exclude 
military personnel accounts. And Secretary of Defense has given 
guidance that the Department will protect to the greatest 
extent possible caring for our wounded warriors, providing 
quality medical care, and, in addition, the Department is 
committed to such efforts as sexual assault prevention and 
response, suicide prevention, service member transition. Our 
warfighters, their families, our Nation's security should not 
and could not be put at risk by this fiscal policy such as 
sequestration.
    Sir, and ma'am, thank you so much for the opportunity to 
speak with you today. And I look forward to your questions.
    [The prepared statement of Ms. Wright can be found in the 
Appendix on page 28.]
    Mr. Wilson. Thank you, Ms. Wright.
    And Lieutenant General Bromberg.

   STATEMENT OF LTG HOWARD B. BROMBERG, USA, DEPUTY CHIEF OF 
                      STAFF, G1, U.S. ARMY

    General Bromberg. Chairman Wilson, Ranking Member Davis, 
distinguished members of the committee. Thank you for the 
opportunity to appear before you on behalf of today's Army. 
Throughout our history, United States Army has never failed to 
respond to a threat to our Nation. Today, the greatest threat 
to our military readiness is the current dire fiscal 
uncertainty. The combined effects of yearlong continuing 
resolution and sequestration, along with the need to protect 
wartime operations, may result in particular severe reductions 
in funding to programs directly relating to the readiness of 
our force and the well-being of our soldiers and families. If 
not addressed, the current fiscal uncertainty will 
significantly and rapidly degrade Army readiness for the next 5 
to 10 years, putting national security at risk. The continuing 
resolution and funding to the Military Personnel Army, or MPA 
appropriation, is in excess of requirements. And the President 
has exempted it from sequestration.
    So military pay, pay raises, housing allowances, 
subsistence, and other pays are adequately funded. However, it 
will become necessary to move funds from the MPA account to 
cover additional funding shortfalls for critical programs. It 
is imperative that we preserve the readiness of our force. We 
simply cannot send soldiers into harm's way who are not 
trained, equipped, or ready for contingencies. Cancellations in 
training or reduction in support network required to feed, 
clothe, and maintain the health of initial entry soldiers would 
create a backlog within the personnel inventory that will exist 
well past fiscal year 2014.
    This backlog would impact the Army's ability to maintain 
grade structure and future readiness. Loss of training is not 
recoverable and will have a negative impact for near-term 
readiness. Subsequently, a loss in confidence in the Army's 
ability to train, equip, and care for soldiers would damage 
recruiting and retention for many years to come. Under the 
Budget Control Act of 2011, the Army will have to cut $170 
billion over 10 years and will reduce our Active Duty end 
strength from 570,000 to 490,000. The National Guard will be 
reduced from 358,000 to 350,000. And the Army Reserve will be 
reduced from 206,000 to 205,000. This would accumulate to a net 
loss with our civilian reductions from 272,000 to 255,000 to 
about 106,000 soldier and civilian positions.
    If sequestration occurs in 2013 and discretionary caps are 
reduced from 2014 to 2021, the Army may be forced to reduce an 
additional 100,000 personnel across the Active Army, National 
Guard, and U.S. Army Reserve in order to maintain a balance 
between end strength, readiness, and modernization. The 
Military Personnel Account may be exempt, but the second and 
third order effects are detrimental and will have direct impact 
on our future readiness.
    While we must transform to a smaller Army, it is imperative 
we do so in a planned, strategic manner, without sacrificing 
programs that impact readiness and support for our people. 
Chairman Wilson, Ranking Member Davis, and members of 
subcommittee, I look forward to your questions and thank you 
for your the opportunity.
    [The prepared statement of General Bromberg can be found in 
the Appendix on page 48.]
    Mr. Wilson. Thank you very much, General. And we have Vice 
Admiral Van Buskirk.

 STATEMENT OF VADM SCOTT R. VAN BUSKIRK, USN, DEPUTY CHIEF OF 
NAVAL OPERATIONS, MANPOWER, PERSONNEL, TRAINING, AND EDUCATION, 
                           U.S. NAVY

    Admiral Van Buskirk. Good afternoon, Chairman Wilson, 
Ranking Member Davis, and distinguished members of the 
committee. Thank you for holding this hearing to discuss the 
potential impacts of the current budget-constrained environment 
on military end strength. We are operating in a time of 
unprecedented uncertainty as we face the prospect of 
sequestration and the ongoing continuing resolution. Though 
military personnel accounts are exempt from sequester, impacts 
to sailors and their families can already be felt as we curtail 
deployments, make adjustments to training and maintenance.
    These actions, while necessary, are disruptive and are a 
source of increased anxiety for our Navy families. Compounding 
these concerns is the potential for furlough of our Federal 
civilian employees, who are the backbone of many of our vital 
sailor and family support programs. While the Chief of Naval 
Operations has committed to protecting these programs, in many 
cases, the absence of the expertise and the corporate knowledge 
of our civilians that they deliver will be sorely felt.
    While we do not anticipate that a CR or sequester will 
adversely impact near-term plans for achieving our end strength 
target, mitigation actions already taken and others about ready 
to be executed will significantly affect our ability to 
attract, recruit, develop, assign, and balance our highly 
skilled workforce beyond fiscal year 2013. Our force management 
actions have us closing the gap as we work towards our fiscal 
year 2013 Active end strength authorization of 322,700, and our 
Reserve end strength of 62,500.
    We do not anticipate the need to further reduce aggregate 
end strength for either component this year. We are applying 
various force management levers as we balance and distribute 
the force and will, to the extent possible, apply voluntary 
measures before resorting to involuntary measures. As we 
stabilize the force, we will adjust future end strength to pay 
anticipated force structure changes that may result from 
actions taken to meet sequestration requirements.
    We have already begun taking actions. We have reduced 
advertising outreach and engagement opportunities, which are 
fundamental to attracting and recruiting our future force. 
Likewise, we are making tough budget decisions regarding 
training, education, and travel that inhibit our ability to 
deliver trained sailors for timely assignment, deployment, and 
distribution. If authorized to transfer funds with the fiscal 
year 2013 budget, we would apply funding for investments to 
restore the most critical operation and maintenance 
requirements.
    We ask that Congress act quickly to enact the fiscal year 
2013 defense appropriations bill, or, at a minimum, provide us 
with the flexibility to reprogram funding between accounts to 
best position us to meet requirements for the national defense 
strategy.
    I remain committed to working with Congress, particularly 
with this subcommittee, to provide information on the effects 
of the continuing resolution and sequestration. Thank you.
    [The prepared statement of Admiral Van Buskirk can be found 
in the Appendix on page 60.]
    Mr. Wilson. Thank you very much, Vice Admiral.
    And we have Lieutenant General Milstead.

   STATEMENT OF LTGEN ROBERT E. MILSTEAD, JR., USMC, DEPUTY 
   COMMANDANT, MANPOWER & RESERVE AFFAIRS, U.S. MARINE CORPS

    General Milstead. Good afternoon. Chairman Wilson, Ranking 
Member Davis, and distinguished members of the subcommittee, it 
is my privilege to appear before you today.
    As our Commandant recently testified to you, sequestration 
will have a significant impact on our Nation's readiness, 
especially in the long term. It creates risk to our national 
strategy, our forces, our people, and our country, risks that 
will be further inflamed by a yearlong CR. We will have to make 
some tough decisions about which programs to maintain and which 
to streamline, or which to cut. We will do everything we can to 
maintain our highest priority programs that support our 
Marines, especially our wounded warrior care. But even some of 
these programs may be impacted if our civilian Marines are 
furloughed. Over 90 percent of our civilian Marines work side 
by side with our uniformed Marines in the operating forces, not 
walking around the halls of the Pentagon.
    Approximately 68 percent are veterans, and they are 
security guards, our firefighters, teachers, therapists, and 
transition support personnel. However, no matter the 
implications, there are some things that must endure. We will 
continue to be our Nation's expeditionary force in readiness. 
We will be ready to rapidly respond to crisis around the globe 
and to ensure continued security to the American people. We 
will be always faithful to the trust which the American people 
have vested in us, and we must keep faith with our Marines to 
draw down in a measured and responsible manner. Your Marine 
Corps will continue to give you the best capability that can be 
squeezed from the precious resources you have allocated to us 
for our national defense. Our individual Marines are the Corps' 
most sacred resource, and they will always be so. I look 
forward to your questions.
    [The prepared statement of General Milstead can be found in 
the Appendix on page 70.]
    Mr. Wilson. Thank you very much, General. And as a Member 
of Congress who has had the privilege of representing Parris 
Island, I know what quality personnel you have.
    We now proceed to Lieutenant General Darrell D. Jones.

  STATEMENT OF LT GEN DARRELL D. JONES, USAF, DEPUTY CHIEF OF 
   STAFF FOR MANPOWER, PERSONNEL AND SERVICES, U.S. AIR FORCE

    General Jones. Chairman Wilson, Ranking Member Davis, and 
distinguished members of the committee. It is our honor to be 
here before you and testify today and to represent the 690,000 
total force airmen serving this great Nation around the globe. 
The military, the men and women of our great service, and the 
Air Force are dedicated and innovative and hard-working. 
Without their selfless efforts, we could not succeed. 
Unfortunately, today our budgetary standoff is sending the 
wrong signal to our workforce. The sheer threat of 
sequestration brings uncertainty and angst to the force and as 
1 March fast approaches, their angst is reaching a fevered 
pitch. Whether it is furloughing up to 180,000 dedicated 
civilian airmen, reducing our flying hour program within 
operational and training units, or cutting temporary duty 
funding to attend mission readiness training and professional 
development, the visible effects of sequestration will be 
significant and widespread. Less measurable but visible will be 
the chilling effect this measure has on the morale and 
institutional confidence of those 690,000 airmen I spoke of 
earlier.
    We all recognize the significant fiscal challenges facing 
our Nation and agree we must all contribute to the Nation's 
solution. However, using arbitrary across-the-board cuts to 
achieve our fiscal goals is shortsighted and will impact our 
readiness levels in the near and the long terms. We urge you to 
do all that is necessary to avert the arbitrary cuts of 
sequestration and pass an appropriations measure. If 
sequestration is inevitable, we ask you to grant us 
reprogramming flexibility, relief from measures like the depot 
50/50 rule and the acquisition 80/20 rule and other 
restrictions that were enacted in a normal budgetary 
environment but today limit our flexibility to mitigate the 
significant impact of both sequestration and the yearlong 
continuing resolution.
    The Air Force has been in sustained combat operations for 
22 years. I am deeply concerned about our people as they 
struggle even more with the stress and uncertainty of a looming 
sequestration and a continuing resolution.
    Thank you for the opportunity to represent the Chief of 
Staff of the United States Air Force and all airmen today. And 
I look forward to taking your questions.
    [The prepared statement of General Jones can be found in 
the Appendix on page 80.]
    Mr. Wilson. I want to thank each of you for your heartfelt 
comments, and I know that we all appreciate your extraordinary 
service.
    We will be proceeding with 5 minutes of questions from each 
person, and then I appreciate very much that Mr. Craig Greene 
will be maintaining the time. And we shall follow the time as 
we proceed.
    Many of the drawdown authorities involve greater capability 
to involuntarily separate and retire service members with 
significant consequences on morale, as has been cited. 
Secretary Wright, what measures, if any, is DOD taking to try 
and maintain some parity across the services with respect to 
which separation measures are being used? Do you see an 
imbalance in these plans between the use of voluntary and 
involuntary separations? If not, do you see any challenges with 
fairness perceptions?
    Ms. Wright. Sir, thank you very much for the question.
    The Secretary and the Deputy Secretary across DOD have 
indicated that they are striving for consistency across the 
Department. We have reached out to the services from the OSD 
[Office of the Secretary of Defense] level and have an 
understanding that the first method that they need to use when 
separating military members from the force is clearly in the 
voluntary zone. We have reviewed all of their plans, and they 
are consistent with that, to use a voluntary method to separate 
the service members.
    Mr. Wilson. I am very concerned, though, that what we will 
see is involuntary separation. And so for each of our military 
witnesses, and beginning, General Bromberg, with you, to the 
right, on my side, and if your service is employing or forced 
to employ involuntary reduction measures, what special efforts 
do you intend to use to communicate with the force and mitigate 
the morale problems that are inevitable. Certainly, military 
families not just service members, but their families are so 
concerned.
    General Bromberg. Yes, sir. With respect to the Army, our 
first plan is to use or reducing our accessions to try to limit 
how many we bring in by year. And then let people naturally 
attrit out of the service through retirement or they decide not 
to stay with us. As we know, about 36 percent always leave the 
service after their first term of enlistment. Then after that 
point, in the case of the Army, we will come to a point where 
unfortunately we will have to use some involuntary separation 
measures. In the case of the Army, it will probably be about 
24,000 enlisted and about 7,000 officers. What we plan to do, 
sir, is we plan to have constant dialogue, both through the 
press, through individual leadership being involved. In the 
case of officers who would be asked to retire early, we will 
have senior leaders talk to those officers. The same with 
noncommissioned officers. Senior noncommissioned officers will 
talk to everybody to ensure they understand the meanings.
    In all cases, we are trying to maximize, to the greatest 
extent possible, in some cases, up to 18 months early warning 
or early notice that that person may have to retire. 
Unfortunately, not everybody will be retirement-eligible. But 
we do have the authority granted in the National Defense 
Authorization Act that will allow us to do early retirement at 
15 years, so some people will be able to apply for that. There 
will be some that will have to leave the service, 
unfortunately, with just separation pay at the end of the day. 
We think we are being very aggressive, we think we are being 
very open, but again we are trying to use our accessions and 
our normal attrition to get to where we need to be by the end 
of 2017 under today's Budget Control Act, not counting 
sequestration or other activities.
    Mr. Wilson. Admiral.
    Admiral Van Buskirk. Chairman Wilson, after two decades of 
reducing our force structure and our personnel in the Navy, we 
are at a point where we were stabilizing our workforce. So 
currently that is based upon the force structure that we 
predict that we will have.
    As we look at the impacts of sequestration, we anticipate 
that if we have to reduce our force structure that we would do 
that, reduce our force structure, we would reduce, accordingly, 
our manpower. But currently we see no need to use involuntary 
measures at this point. And, hopefully, as we can continue to 
stabilize the workforce, we will be in a position to where we 
are just maintaining voluntary measures that we will use to 
shape our workforce.
    Mr. Wilson. Thank you.
    General Milstead. In the Marine Corps, we are taking down 
to 182,100. That is our figure. And as I have stated in my 
written testimony, we see no need at all to use involuntary 
measures. We are confident that we can maintain this measured 
and gradual descent without the need for involuntary measures, 
you know, and thank you very much for what you have given us to 
be able to do that. You have given us the force-shaping 
measures so that we can do this. The temporary early retirement 
authority, the VSP, Voluntary Separation Pay. These are paid by 
OCO [Overseas Contingency Operations], and so they are not 
coming out of the funds. You have given us early release 
authority, you have given us time and grade waivers. And these, 
we are confident, will be sufficient to get us down to that 
182,100 by the end of 2016 without involuntary separations.
    Mr. Wilson. Thank you. And concluding.
    General Jones. Mr. Chairman, the Air Force for the last 2 
years has been on a multiyear program to get us to our end 
strength by the end of fiscal year 2012. We are very fortunate 
to meet that goal and basically be right on target at the end 
of the year. Our goal for fiscal year 2013 on the Active side 
is 3,340 less. With the reduced amount of time, once we have a 
budget solidified to get to that, we do have concerns whether 
we will be able to reach that at the end of the year using 
voluntary programs, but we believe we will. We will be using no 
extraordinary involuntary programs this year.
    In fiscal year 2014, we are not sure if we are going to be 
able to meet our end strength without possibly having to resort 
to the Selective Early Retirement Boards. But ours is more of a 
force-shaping program where we are looking at year groups and 
specific career fields to reduce our forces while maintaining 
our accessions. We are cutting accessions on the enlisted side 
by 2.6 percent in fiscal year 2013 and no reduction on the 
officers' side of the house, because we think it is very 
important to maintain our seed corn as we go forward so that we 
don't create bathtubs that we have to live with for 20 years.
    Mr. Wilson. Thank you, each one of you, for your comments. 
And we now proceed to Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. I know you have been 
talking about your drawdowns. I am just wondering, if 
sequestration does move forward, could you expand on some other 
timelines that you would be looking at? And would those, any of 
those include any additional drawdowns?
    Ms. Wright. Ma'am, I am going to have to defer to the 
services individually when they talk about their particular end 
strength and how sequestration would affect that particular end 
strength.
    Mrs. Davis. Okay.
    General Bromberg. Yes, ma'am. In the case of the Army, we 
are examining right now if sequestration takes effect, would we 
have to accelerate our ramp, our downturn ramp right now away 
from the plan that we currently have. We could potentially have 
to do that in order to balance readiness, modernization, and 
overall end strength. In that case, we could see ourselves 
blowing by the estimates that we have right now for end 
strengths for each year. And if sequestration happens, just 
looking at the overall balancing again across all the budgetary 
requirements, we could see ourselves coming down as much as 
100,000 out throughout the future years. Still doing the 
research on that, and we could provide you more information. 
But that is what we are right in the middle of doing right now.
    Mrs. Davis. What is the timeline? When would you have to 
begin to make those decisions? We are looking at, obviously, 
March 1st and then the 27th in terms of the CR. What timeline 
are you looking at to actually make those decisions?
    General Bromberg. Yes, ma'am. If the discretionary cap is 
not going to be lifted, then we will probably make the current 
downturn path decision probably in the next 30 to 60 days. 
Because we just know we won't have the money to maintain that. 
As far as the larger reduction decisions, those would come out 
as we further develop the budget for 2014 through 2018 and 
beyond.
    Mrs. Davis. Is that the same basically for all of you? Or 
is there anything else you would like to add?
    General Jones. In the Air Force side of the house, ma'am, 
unless sequestration would were to go for an extremely long 
time that would cause significant reductions in force 
structure, we wouldn't need to take the force any smaller.
    General Milstead. For the Marine Corps, 182,100. We have 
done a detailed analysis through a force structure review group 
and other such measures to see what the Marine Corps needs to 
be to meet our defense strategic guidance. And that number is 
182,100. We are confident, regardless of sequestration, even 
regardless of a continuing resolution, that we can get down to 
182,100, given those force-shaping measures that you have given 
us. But it is important to point out to go back what Chairman 
Wilson stated, that the President has chosen to protect the MIL 
PERS [Military Personnel] accounts in this fiscal year. Given 
that, we can maintain this glide slope.
    Should that not be the case in the outyears, then, yes, 
ma'am, there is some hard decisions are going to have to be 
made. Because you are going to have to take that 2.3 cents on 
the dollar right out of those MIL PERS accounts and you are 
going to have to get rid of people. But for the time being, we 
are optimistic that we will continue to have the MIL PERS 
accounts deferred.
    Mrs. Davis. Thank you. It is one thing not to have those 
accounts touched through this. But we have also talked about 
the fact that many civilians may be furloughed. And this 
affects our families. And so I wonder if you could talk a 
little bit more about that. And what is the I guess the 
perception, too, in terms of the questions that you are getting 
in terms of other benefits that might be affected by this.
    Admiral Van Buskirk. Ma'am, I just came from Norfolk this 
past Friday where I had a chance to, all hands calls, not just 
with the Active and Reserve Components, but the civilians as 
well. And I will tell you the mood is angst, concern. The 
Active Duty Components and Reserve looking at the civilian 
workforce that they work side by side with on a day-to-day 
basis in our home port and our fleet concentration areas, 
looking at them as they are facing the decisions that they are 
going to have to make within their own families and the choices 
they have to make as they take a potential pay cut if a 
furlough should occur.
    Additionally, it shouldn't be underestimated the effects of 
the hiring freeze that we have. The hiring freeze is 
significantly impacting our ability to bring in new talent to 
backfill the people who are choosing to leave our service. And 
the civilian workforce is vitally important, the 180,000-plus 
civilians that work within the Navy total force construct are 
critical to achieving our mission. So there is a concern among 
all the components about our ability to continue to meet our 
readiness and to fulfill our mission as we go forward.
    Mrs. Davis. Anybody else, quickly? Yes, Secretary Wright.
    Ms. Wright. Yes, ma'am. I would like to add that, the 
furloughing, should we have to do it, of our civilians, 
oftentimes, people believe it is a Washington, DC, phenomenon. 
And I will tell you out of the 800,000 great civilians that are 
employed by our Department, the majority of them, 80 percent of 
them, work outside of the Military District of Washington. And 
so they fix our aircraft and our tanks and our ships. They 
provide services across the Nation. So this will be felt, you 
know, from this Washington to the State of Washington equally 
across our area.
    Mrs. Davis. Thank you. I think my time is up, and maybe if 
you want to pick that up later with someone else. Thank you 
very much.
    Mr. Wilson. Thank you, Ms. Davis. And we now proceed to 
Congressman Joe Heck of Nevada.
    Dr. Heck. Thank you, Mr. Chairman. And thank you all for 
being here, for your service and for the forthright and stark 
assessment that you have presented to us. Certainly with the 
significant end strength reductions, more so Army and Marine 
Corps than the other services, they are going to come with 
certain risks to being able to execute our national military 
strategy the next time the balloon goes up. Certainly in the 
past, that risk has been mitigated somewhat by the use of Compo 
[Component] 2 and 3 in the Reserve Components. And over the 
last decade, we have built some incredible capabilities within 
the Reserve Components going from that transformation of a 
strategic reserve to an operational force, but it was done with 
OCO money, not baseline budgets.
    So now we see baseline budgets getting cut, OCO money is 
going away, no more CO-ADOS [Contingency Operation for Active 
Duty Operational Support] tours. And then that is going to be 
compounded with the capabilities not being able to train to the 
same level that they had.
    So it seems like our risk mitigation force is also taking a 
significant hit in being able to execute our national military 
strategy. And I will say that I don't ever want to find us in a 
position again where I hear the quote that ``You don't go to 
war with the Army you want, you go to war with the Army you 
have.'' But I am fearful that that is the path that we are 
going down. I mean, certainly, in the Army Reserve, with 83 
percent of the transportation assets, 74 percent of medical 
assets, 70 percent of civil affairs assets, Army is not going 
to war without the Reserve Component. What steps are being 
taken, if any, to try to be able to maintain the capabilities 
in Compo 2 and 3 to try to offset the risks that we are going 
to incur by the drawdown in the Active Duty force?
    And I am sure it is across the board. I will use Army 
Reserve because it is the one I am most familiar with, but I am 
sure it is going to be an impact on all of the Reserve 
Components.
    General Bromberg. Yes, sir. As you have clearly 
articulated, the risks are great in executing our national 
strategy. Some of the things we are looking at right now as we 
look at how we balance the readiness, the modernization, the 
end strength account, preserving those critical resources need 
the Reserve Component. But clearly those are at risk. As we do 
our analysis in the coming weeks and months, as we see what the 
budget is, we will have to see where we end up. And we will do 
some follow-up with you, if that is okay.
    [The information referred to can be found in the Appendix 
on page 97.]
    Ms. Wright. Sir, I would like add, too, that if we go into 
sequestration and we do have to institute a furlough, that will 
also affect those military technicians, those excepted civil 
servants that work for the Reserve Component. So that is 
another issue that the Reserve Components will be dealing with, 
just like the Department or the Active Component is dealing 
with.
    Dr. Heck. I appreciate you bringing that point up. And I 
guess, has there been any discussions of whether or not the 
dual status individual, if one status is going to be affected 
because of a change in the other status due to sequestration? 
What if the MILTECH who has got to maintain their Reserve job, 
is going to lose the Reserve job, or vice versa, if it is a 
MILTECH [Military Technician] who is going to lose their 
MILTECH position, are they still going to be able to maintain 
their Reserve status? Has there been any discussion about what 
might happen in that regard?
    Ms. Wright. Their military job is protected with the MIL 
PERS account. So they will be paid as the military part of 
their responsibility, their Reserve Component position. If the 
furlough goes into effect, they will be furloughed along with 
the other DOD employees.
    Dr. Heck. Any other, on the Reserve Component side, on the 
effects on your respective services?
    General Milstead. The Marine Corps Reserves, we are going 
to hold at 39,600. That was all part of that same analysis on 
what we need. You know, we look at things as a total force.
    They are spread across 180 sites across this country. They 
do have civilians. And as Secretary pointed out, some of these 
positions are just one or two deep. So they will be affected by 
possible furloughs. But we have them about $665 million in the 
Reserve, the RPMC [Reserve Personnel, Marine Corps] account, if 
you will, this year. So we have them in baseline. And we are 
trying to live within the baseline. But in my total TOA [Table 
of Allowance], only 3 percent of that is discretionary in my 
manpower account. And out of that 3 percent, I try and also 
feed the Reserves, to go to your question. Those reenlistment 
affiliation bonuses, the MOS [Military Occupational Specialty] 
retraining, the travel reimbursements, the IMA [Individual 
Mobilization Augmentee] costs to pay to activate a Reserve, to 
help support the Active Component or whatever. So we will be 
challenged significantly with sequestration for the management. 
But the basic 39,600 is covered.
    Dr. Heck. Then just quickly, if the Admiral or General 
Jones if you have anything to add differently for your 
respective components.
    Admiral Van Buskirk. For our Reserves, as you know, sir, 
they are fully integrated with our Active Component. So they 
are seeing the impact as we reduce our training opportunities. 
Their training opportunities are reduced as well, flying hours, 
their ability to do the mobilization training that is critical 
for supporting the total force mission.
    General Jones. Sir, we will see an equal impact on the 
Active, the Reserve, and the Guard side when it comes to flying 
hours. An 18 percent reduction in flying hours for the year 
really equates to a 30 percent reduction in flying hours, 
roughly 203,000 flying hours. Units will very quickly go down 
to flying only basic qualifications for their aircraft, not 
combat ready for the aircraft. And we will see that effect. And 
it will take 6 months to spin them back up to be combat ready. 
Add on top of that the dual status technicians who will be 
furloughed if we go to a furlough. And the impact will be felt 
for a long time.
    Dr. Heck. Thank you all. Thank you, Mr. Chairman. I yield 
back.
    Mr. Wilson. Thank you, Congressman Heck.
    We now proceed to Congresswoman Niki Tsongas of 
Massachusetts.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you all for 
being here today. We are here because we are all too aware that 
sequestration is now only 2 days away from being implemented. 
And we all have our particular concerns about its harmful 
effects. But in this context, I am particularly worried about 
the impact that it would have on our civilian and uniformed 
acquisitions workforce.
    In an Armed Services Oversight and Investigations 
Subcommittee hearing yesterday, one of our witnesses spoke 
about what Fareed Zakaria has called ``the democratization of 
violence.'' This is the idea that increasingly sophisticated 
weaponry is becoming more and more readily available to 
emerging global competitors, Third World countries, and even 
non-state actors. So, for example, Hezbollah is now using UAVs 
[unmanned aerial vehicles] and increasingly sophisticated long-
range missiles, and as a result, poses a very significant 
regional threat.
    In this kind of threat environment, it seems to me that it 
is essential for our Nation to continue its robust investment 
in R&D [research and development] and efficient acquisitions 
management of cutting-edge defense technology in order to 
retain our leadership on the world stage, even as we cut end 
strength and draw down from Afghanistan.
    And I would like to direct this question to you, General 
Jones. I know that this is an issue that has been of importance 
to you given your previous command of the 66th Air Base Wing at 
Hanscom Air Base. This is a base that is located next to my 
district in Massachusetts. And Hanscom, as you know, manages 
the Air Force's Vital Electronic Systems Acquisition, also 
known as C4 ISR, as part of the Air Force Materiel Command's 
Life Cycle Management Center. As we continue to move away from 
a generation of dumb bombs and towards drones and cyber 
capabilities, these acquisitions functions will become more 
important than ever.
    And, General Jones, you note in your testimony that 
sequestration will ``hobble'' the Air Force's modernization 
efforts, a major priority which the Air Force has cut end 
strength to fund.
    Could you elaborate on how it could hamper efficient 
acquisitions management, particularly of electronic and cyber 
systems, which are so extraordinarily complex and quickly 
evolving technologies?
    General Jones. Yes, ma'am, I will be happy to. First off, 
let me tell you that being stationed at Hanscom was really one 
of the best assignments my wife and I ever had. The area, being 
southerners, we weren't sure what we were going to expect when 
we got up north. That was a very cold place for us. But it 
really was truly one of our great assignments, and some 
wonderful people.
    But if you walk around Hanscom Air Force Base, as all of 
our acquisition bases and our depots, you see a lot of 
civilians and you don't see as many people in uniform. Seventy-
four percent of all of our acquisition professionals are 
civilians. If we go to furlough and we furlough them for 2 days 
per pay period, or basically 20 percent of their productivity 
for the rest of the year, that is going to have a huge impact 
on our ability to acquire and complete the acquisition 
programs, and delay the delivery of different programs because 
they just won't be there to do the job. It is a 20 percent cut 
in productivity. If you look at the depots, we have 24,000 
civilians working in our depots. The number of days they will 
take off through furloughs will be significant for us, and it 
will have an impact. And that impact in the depot processes 
will take years to overcome because it is a very much the 
aircraft are coming in at max capacity. We are working them the 
best we can, getting them out quickly.
    So any delay in that process is going to send a bow wave 
and a ripple effect that we will live with for a long time. We 
understand the importance of acquisition professionals in the 
Air Force, whether they are in uniform or civilians. We closely 
monitor them. We have, obviously, through DAWIA [Defense 
Acquisition Workforce Improvement Act] we watch their promotion 
opportunities, their career progression. And we know how 
important they are to what we do in the Air Force, whether it 
is in cyber, whether it is in aircraft. And it is something we 
can't do without. It is going to take years if we go to the 
full effects of sequestration and furloughing the civilians to 
overcome what will happen.
    Ms. Tsongas. Would you be impacted on a freeze by hiring as 
well?
    General Jones. We are already impacted on our hiring.
    Ms. Tsongas. The backfill?
    General Jones. We started hiring freezes on 16 January. And 
there is basically, there were 5,000 vacancies in the Air Force 
a few months ago. That didn't count critical temps and term 
employees. That is another 3,200 employees that are not at 
their job. And so every day we continue in the hiring freeze 
with the waiver authority held at the vice commander, the 
three-star level of the command, so it is being used very 
sparingly, it is having an impact on what we do every day.
    Ms. Tsongas. Thank you. I yield back the balance of my 
time.
    Mr. Wilson. Thank you very much. And in consultation with 
the ranking member, we will proceed with another round of 
anyone who would like to ask further questions, because this is 
so important for the security of our country.
    I would like to ask each of the services to clarify what 
decisions will have to be made in 30 to 60 days if the 
sequester goes into effect? Is the decision that will be made 
one concerning end strength for cuts for fiscal year 2014 and 
beyond? If sequester goes into effect, when will the decisions 
be made about when additional end strength cuts for fiscal year 
2014 have to be made?
    And actually it is quite appropriate we begin with the Army 
because that is where the greatest impact would be. So General 
Bromberg.
    General Bromberg. Thank you, sir. I think if sequestration 
goes into effect and the discretionary caps aren't lifted for 
the future, the first piece we are going to have to look at how 
fast do we change the speed at which we are approaching 490 
based upon the Budget Control Act of 2011. And that will force 
us potentially to use more involuntary incentives to have 
people leave sooner to get us down to that 490 number. That is 
the first question that we will have to answer. I think we will 
have to answer that in the next 30 to 60 days as the budget 
unfolds for fiscal year 2014 and the rest of 2013. So as soon 
as we have that information, we will go ahead and start moving 
down that direction.
    The greater question, if the discretionary caps aren't 
lifted and they continue out through 2021, if we do have to 
reduce the size of the Army by over by up to 100,000, both the 
Active Component and the Reserve Component, National Guard and 
United States Army Reserve, that decision will take a little 
bit longer as we work through the summertime, I imagine the 
spring and the summertime. It is very hard for me to put an 
exact date on it, sir. But we will have to work through that 
once we know that is in effect. But clearly, we think the 
number is right around 100,000. And we will have to balance 
that with what capabilities we need, both Active and Reserve 
Component, to be able to respond to contingencies. And, again, 
balancing that so we don't hollow out the force tied to 
modernization, tied to the training base, as well as tied to 
overall readiness of the Army. So that is how I see it 
unfolding, sir.
    Mr. Wilson. Thank you. Vice Admiral Van Buskirk.
    Admiral Van Buskirk. Mr. Chairman, similar, sir, with the 
way we would go about this is to take a look at what choices we 
have to make to be able to meet sequestration targets. 
Certainly, that is in our investment accounts. That may not 
have as big an impact to our manpower accounts. But if we 
choose to do it via force structure, force structure reductions 
in terms of ships and aircraft, ideally, we would, in order to 
not hollow out our force, both either on the capability side or 
on the people side, is that we would draw down consistent with 
the force structure reductions that we would choose to execute.
    Those decisions have not been made. And those would be part 
of our decisionmaking process for the 2014 budget and 2015 and 
beyond that we are working on right now, sir. So I don't have a 
good timetable for the exact cuts we would have to make for our 
personnel and our end strength, because that would be tied to 
the decisions associated with where we would cut in terms of 
force structure or capability for the future.
    Mr. Wilson. Thank you. And General Milstead.
    General Milstead. Yes, sir. We are going to have to 
maintain a balance across all five pillars of our readiness. We 
can't overly focus on one. But that said, we are confident that 
we can maintain this measured and gradual glide slope that I 
have spoken of before in that sequestration will not have an 
adverse effect on our ability to maintain that glide slope, 
maintain faith with our Marines and their families, and get us 
down to 182,000 by the end of 2016.
    Mr. Wilson. Thank you.
    And General Jones.
    General Jones. Sir, we are very close to our end strength 
as it is. Really any changes for us from the people side will 
be driven by force structure adjustments which might come from 
a prolonged sequestration. So, like the Navy, once we decide 
how long we would be in this situation and what adjustments we 
might have to make for force structure, we would then be able 
to react from a personnel standpoint.
    Mr. Wilson. Thank you. And Vice Admiral Van Buskirk, in 
your statement, you mentioned that sequestration could cause 
the Navy to have up to 50 less than the current shipbuilding 
plan. How does this equate to the end strength numbers?
    Admiral Van Buskirk. Mr. Chairman, I will have to take that 
for the record, sir, to give you the exact number that that 
would equate to. But certainly, we would take a look at all the 
crews that are associated with that and then there would be 
tail associated with that as well that would go with a 
reduction in the force structure of the ships and aircraft that 
would be part of that, sir. I don't have a good number for you, 
sir. I have to take that for the record.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Wilson. Thank you. And I want to express concern, 
again, back on the number of ships. We are sadly going back to 
what was existent in 1916. Concerned about the Army, Marine 
Corps, that we are going back to where we were in 1939. And for 
the Air Force, going back to when the Air Force was created in 
1947. And I am just very concerned for our country.
    I now yield to Ms. Davis.
    Mrs. Davis. Thank you again, Mr. Chairman. And just going 
back to Ms. Tsongas's point for a moment. I know a few years 
ago when we spent a lot of time with procurement and the 
ability of trained, experienced professionals to do their job 
and to have the kind of consistency in terms of the things that 
they were being asked to do. And I certainly worry and I 
suspect that you do, too. I don't know that we necessarily lose 
that workforce, but they certainly can't be working at peak in 
their ability to do that. And we often are critical, and I 
think, you know, for some good reason, in terms of the way 
contracts are let and some of the difficulties that we have had 
over the years. But at the same time here, we are doing 
something that obviously is going to impact that process. And I 
don't know if you have any other thoughts about that. But it is 
something we certainly need to look out for.
    We have talked a little bit about authorities that you are 
granted, and certainly when it comes to any additional 
drawdowns or the reshaping of the force. Are there some 
authorities that you feel you have that you could use to make 
some changes as we go forward? And in that context, do you have 
to find offsets in order to do that? Because if you do, where 
would those offsets come from? I mean, if you have some 
authorities to move some of the funds around, you have to back 
that up with additional offsets in order to do that? And what 
then? How do you work that? Secretary Wright, do you want to--
overall?
    Ms. Wright. Right now with the continuing resolution there, 
the pots of money aren't necessarily in the right place.
    Mrs. Davis. Right.
    Ms. Wright. And so in order to--if we are in a yearlong 
continuing resolution, without the ability to move the money to 
the appropriate appropriation makes it very difficult for us to 
manage the force, to manage our readiness. And then to add onto 
that the potential, the very real potential of the $46 billion 
sequestration, that is where we see that huge degradation in 
readiness in most of the programs that we run. If we would get 
sequestration, that would be extremely painful for us in 
running our programs. The fact that it would be doubly hard was 
if we had the continuing resolution without the ability to move 
the money or it to be placed in the right accounts.
    Mrs. Davis. Are there some authorities that you have that 
would allow you to do that? Are there any in any areas at all? 
I just wanted to clarify that so that we----
    General Bromberg. Yes, ma'am. Follow on. For current year, 
we could use the reprogramming authority that allow us--if I 
have an excess in one account that I could move it to cover 
training, for example. We already have a training shortfall for 
units that have to deploy in the fall timeframe. But I can't 
move money out of any other place to do that. So that could 
help us mitigate some things within this current year.
    For the Army, it is even more complicated, because not only 
do we have the continuing resolution challenge and 
sequestration, but we also have an increase in our overseas 
contingency operating costs as we close down in Afghanistan, 
second destination transportation costs, fuel costs, and so 
forth. And that gives us an additional $6 billion shortfall 
that we have to overcome. So we have a threefold problem that 
gives us about an $18 billion shortfall within the last 6 
months of the year. So those combined together for just 2013 
are creating our challenges.
    Admiral Van Buskirk. Yes, ma'am. As the CNO [Chief of Naval 
Operations] has testified, ours is also an imbalance. It has 
got to do with the way bringing forward 2012 into 2013 with the 
continuing resolution in that we have more money in the 
investment accounts there that we could be using right now for 
our operations account. And so having the transfer authority 
would enable us to----
    Mrs. Davis. What happens to those funds?
    Admiral Van Buskirk. Those funds wouldn't be there. For 
instance, for the continuing resolutions, we are not able to do 
new starts on things we thought we were going to be able to do 
this year. So that money is there and available. And we won't 
have time to execute that money for this year. So not to 
obligate it. So as a result, that money could be utilized if a 
transfer was available to our operations account potentially to 
offset the furlough.
    General Milstead. We are the same way, ma'am. We just need 
the increased transfer and reprogramming authorities. Realign 
those dollars, move them around, as General Bromberg spoke 
about. Take them from an area that----
    We are going to protect our higher priority programs. But 
we are going to do so at the expense of the lower priority 
programs. But to rob Peter to pay Paul, you need to be able 
sometimes to reprogram, to be able to shift some monies around. 
And as my brother to my right mentioned, you know, the ability 
to begin multiyears, to--no cold starts. For the Marine Corps, 
the F-35, the MV-22, we cannot get into our multiyears nor into 
the MILCON, do the MILCON we need to the hangars to support 
that. And that is remaining within the annualized CR. So for 
us, the alligator that is closest to the canoe is that CR. I 
mean, give us an appropriations bill.
    Mrs. Davis. Thank you.
    Mr. Wilson. Thank you very much. We now proceed and 
conclude with Congressman Heck of Nevada.
    Dr. Heck. Thank you, Mr. Chair. We have talked a lot, and 
rightfully so, about the impacts on manning, training, and 
equipping. What about the impacts on MWR [Moral, Welfare, and 
Recreation], family support programs? I mean, I know what the 
answer is, but I would like to have your answers on the record. 
So, ma'am, if you want to start.
    Ms. Wright. As I have said before, I truly believe that 
when you take such a significant bill as $46 billion, there is 
not a program that is not going to be affected in some way.
    Saying that, we have been very cautious when we are doing, 
for example, the furlough plan. And I will give you a specific 
example when it comes to schools. You know, we run DOD schools 
across the Nation, across the globe. Our schoolteachers will be 
affected by the furlough. But we are working it in such a way 
that the children will get an accredited school year. Because 
that is very important, to preserve that education for our 
children.
    But when it comes to things like commissaries, which are a 
family benefit, we may have to close a commissary one day a 
week. Those plans are still being vetted and they are 
contingent upon going into sequester, they are contingent upon 
the potential of a furlough. Our Secretary has made it 
perfectly clear that we are to protect as much as possible 
those programs that affect our families and our warfighters. 
And so we are trying to do that working through this fiscal 
crisis.
    General Bromberg. Yes, sir, very similar for the Army, we 
are trying to protect those critical family programs and make 
sure that adequate support across the force. But clearly there 
is going to be reduction of hours. There is going to be some 
pullback of capability in lesser critical programs. Even when 
we were looking to get support we give for child development 
centers all the way across, you may have to remove some flex 
hours or close down lesser hours or whatever the case may be. 
But, clearly, we were going to do what is right for the 
families within the limits of the budget. But there will 
definitely be impacts.
    Admiral Van Buskirk. Yes, sir. I think the key thing in 
addition to those comments are that we won't mortgage our 
future. What we will do is we will defer the maintenance of all 
those infrastructure that is there that supports these 
programs. When things break, we won't fix them, we won't do new 
construction on where we need to be doing new construction. 
That will be the first thing that happens in order for us to 
bias ourselves towards service in the near term, to keeping the 
hours as much as possible available to provide the services. We 
will protect the key family programs, but I think you will see 
it first in MWR programs, gym closings at different times, 
perhaps, and programs will be the first to go after we do 
deferred maintenance and reduce new starts.
    General Milstead. Sexual assault; behavioral health; combat 
operational stress control; suicide prevention; Wounded Warrior 
Regiments, our Wounded Warrior Regiments; our family readiness 
officers, the 380 we have; the transition assistance that we do 
for our Marines, soldiers, sailors, airmen that are 
transitioning out--all of these will be protected to the 
greatest degree that we can at the expense of those lower 
priority programs. Again, we will rob Peter to pay Paul where 
we can. But will there be some risk, will we take risk in 
those? Yes, sir, we will take risk in those.
    General Jones. Sir, we will certainly try to maintain and 
protect our family programs and our services programs, but as 
all my colleagues have said, there will be impacts. When you 
look at child development center and youth programs, 25 percent 
of all the people that work in those programs are dependents of 
service members. They will be furloughed in many cases, as they 
are furloughed, that will have an impact on the family budget. 
The family budget, the money they are able to spend at the 
commissary which may be closing for a day every week at every 
installation. It just begins to trickle down. As facilities 
restoration modernization are not done, you can impact 50 
percent reduction first annually in 2013, but that is basically 
a 90 percent reduction in the last 5 months, 6 months out of 
the year. Ninety-three projects just won't start at 52 
different bases, and all those have an impact, some of those 
would be in the family programs, but most of them are work-
related. But it has an impact on the overall stability, the 
overall comfort level with serving the government.
    Back to Ms. Davis, what you said earlier, we are talking 
furloughing civilians which sounds really easy to say. We are 
really talking about cutting their pay for 20 percent for the 
next 6 months of the year, which is a huge hit. Many of these 
families have two jobs, many of these families are living 
paycheck to paycheck, and a 20 percent cut no matter how much 
we advertise it, someone asked earlier if we would be able to 
use--what publicity we would be able to use to get the word out 
on what is coming. There is no publicity that can mitigate the 
effect of a 20 percent pay cut in a civilian employee, it will 
be tough.
    Mr. Wilson. Thank you, Congressman Heck. Thank you General 
Jones for pointing out that it is military families that work 
at the MWR facilities and will be significantly impacted. As we 
conclude, for the Navy and the Air Force in the event of 
sequester, if this could be provided for the record, I would 
like to know when the determination would be made as to force 
structure for fiscal year 2014 and fiscal year 2015.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Wilson. I want to thank all of you for being here. 
Under the extraordinary circumstances we are facing, I know 
that we all appreciate your compassionate and heartfelt service 
with our military service members and military families. Thank 
you. We are adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                           February 27, 2013

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2013

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 27, 2013

=======================================================================


             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    Ms. Wright. The Marine Corps is in the process of drawing down its 
end strength from the height of 202,000 to 182,100 by the end of fiscal 
year 2016. The Marine Corps is conducting the drawdown at a measured 
and responsible rate of approximately 5,000 Marines a year. This active 
duty force will be complemented by the diverse depth of our reserve 
component that will remain at 39,600 strong. Our emerging Marine Corps 
will be optimized for forward presence, engagement and rapid crisis 
response. It will be enhanced by critical enablers, special operators 
and cyber warfare Marines, all necessary on the modern battlefield. 
[See page 20.]
    General Bromberg. The Army is in the final process of determining 
force structure changes in Fiscal Year 2014 (FY2014) and FY 2015. The 
Army anticipates releasing the FY 2014 and FY 2015 information this 
summer, provided there are no significant changes in anticipated 
resourcing. [See page 20.]
    Admiral Van Buskirk. The number of people impacted by a reduction 
in shipbuilding depends on which types of ships are eliminated and how 
Navy manages the current ship inventory in response to changes in 
shipbuilding plans. In general, fewer ships means fewer Sailors will be 
needed to man the ships.
    The number of people assigned to a ship is determined generally for 
each ship class and individually for each ship, based on the expected 
mission and equipment. The impact of changes in the Fleet size can have 
a wide range of impact on end strength. Littoral Combat ships have a 
crew of fewer than 50 in their core crew while Aircraft Carriers have 
crews of about 3,000.
    To fully determine the effects of force structure reductions on end 
strength, Navy must also assess the impact on the shore activities 
supporting the fleet. Reductions in ships, submarines or squadrons 
likely have corresponding changes to these support organizations. In 
many cases, functional activities such as training, maintenance, 
shipyards and logistics activities support multiple ship classes. The 
workforce mix military, civilians and contractors makes the 
determination process for military reductions more complex. And, 
depending on which ships are retained, there are a wide range of 
maintenance requirements with corresponding and varied military end 
strength required. [See page 16.]
    Admiral Van Buskirk. Force structure decisions for the Department 
for fiscal years 2014 and 2015 were made during the recently completed 
program and budget review as part of developing the fiscal year 2014 
budget request. While the President has not yet submitted this budget 
request to the Congress, I can tell you that it will reflect force 
structure decisions; as well revisions to those force structure 
decisions made last year. These include those driven by a reduced 
fiscal topline, as required by the Budget Control Act 2011 and by 
Congressional requirements included in the fiscal year 2013 National 
Defense Authorization Act. However, as with all programs, the 
operational readiness associated with the Department's force structure 
is at significant risk as a result of the sequestration. [See page 20.]
    General Milstead. Adjustments will be made to the force structure 
once the full extent of resource constraintimposed by a new budget is 
determined. [See page 20.]
    General Jones. Our force structure for Fiscal Year (FY) 2014 will 
be presented in the FY14 President's Budget (PB). The Program Objective 
Memorandum process for FY15 will determine force structure for the 
following year and will be presented to Congress via the FY15 PB. Force 
structure in both years is subject to change depending on how 
sequestration is implemented. [See page 20.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY DR. HECK
    General Bromberg. The Army is continuing to expand upon the 
Department of Defense Directive 1200.17 (Managing the Reserve 
Components as an Operational Force) by ensuring the Reserve Component 
(RC) participates across the full range of military operations at home 
and abroad. For the Army to meet the National Defense Strategy, the RC 
must provide operational capabilities and be incorporated into a 
revised Army Force Generation (ARFORGEN) Model. The Army is in the 
final stages of developing this new ARFORGEN Model which specifically 
identifies those capabilities critical to meeting the National Military 
Strategy, regardless of Component (COMPO), allowing the Army to apply 
scarce resources at the correct time and place to minimize risk and 
ensure readiness. By the end of FY 18, the RC will comprise more than 
53% of the total Army end strength and will be organized, trained, 
sustained, equipped and employed to support the new ARFORGEN Model. 
[See page 12.]

                                  <all>


</pre></body></html>
